 Audit of USAID's Bureau for Africa's
Management of Unliquidated Obligations



        Audit Report No. 9-000-01-001-F
                March 9, 2001




              Washington, D.C.
                                                                              March 13, 2001




MEMORANDUM

TO:            DAA/AFR, Keith E. Brown

FROM:          IG/A/PA, Dianne L. Rawl

SUBJECT:       Audit of USAID’s Bureau for Africa’s Management of Unliquidated
               Obligations (Report No. 9-000-01-001-F)

This memorandum is our report on the subject audit. In finalizing this report, we
considered your written comments on our draft report and included them in their entirety
as Appendix II to this report.

This report contains three recommendations for action by your office. Based on your
written comments on the draft report, we consider Recommendation Nos. 1 and 3 to have
received management decisions. Within 30 days of the issuance of this report, please
provide written notice to the Office of Management Planning and Innovation relating to
actions the Bureau for Africa (hereafter "the Bureau") has taken to close these two
recommendations.

As for Recommendation No. 2, you have not fully commented on the $8,060,293 in
efficiency savings identified in Appendix III to this report. We are therefore withholding
our concurrence with the management decision described in your comments until we receive
the results of your review of each of the figures in bold print in Appendix III. In some cases,
your response noted that certain actions, which may affect an amount we recommended for
deobligation, are still pending. For example, you suggested that an opinion from General
Counsel would be sought as to how to address the unliquidated obligation balance of one
award. In others, the response asserts that the unliquidated amount "currently" does not
exceed forward funding guidance, but supporting evidence is not provided. Accordingly,
we have summarized in this report actions that are required for a management decision.
Recommendation No. 2 can be closed when amounts currently found to be in excess of
needs are deobligated.

I want to express my sincere appreciation for the cooperation and courtesies extended to
my staff during this audit.




                                              -2-
Background

This audit was designed to review the Bureau’s management of its unliquidated obligations.
In particular, the audit sought to determine whether these obligations were both legally valid
and properly valued. An obligation is a legally binding pledge of Government funds to pay
for specific goods or services.

As of March 31, 2000, the Bureau was managing more than 300 awards that had
unliquidated balances. About $500 million had been obligated for these awards, of which
more than $160 million was unliquidated. Although officials from other offices signed most
of these awards on behalf of USAID, Bureau officials signed 137 of them. The amount
obligated for the 137 Bureau-signed awards totaled about $160 million, of which about $63
million was unliquidated.

Federal laws and internal USAID guidance require the effective management of
obligationsfrom creation through liquidation. Agencies need to ensure that only legally
valid obligations are recorded in their accounting systems, that the initial funding estimate
for each obligation is as precise as possible, and that internal controls are in place to ensure
that the unliquidated balance of each obligation is reviewed periodically and adjusted
upward or downward as appropriate. In addition, USAID procedures require bureaus,
offices, and missions to provide annual certifications that the obligations they sign are
legally valid and that those they manage are properly valued.

Over the years, the Office of the Inspector General (OIG) has conducted many audits of
unliquidated obligations, each time noting that a significant number of obligations had
excess or unneeded balances available for deobligation. Auditors attributed the problems
primarily to inadequate guidance and inadequate and/or incomplete reviews of
unliquidated obligations by program managers. In response to recent audit findings,
USAID’s Chief Financial Officer (CFO), among other actions, issued new guidance to
and developed and conducted comprehensive training programs for obligation managers.
However, because of continuing concern that managers were not reviewing obligation
balances as directed, the CFO asked the OIG to initiate another series of audits on the
management of unliquidated obligations.


Audit Objective
This audit is the first of series of audits to be cond ucted at the request of the CFO and
was designed to answer the following question:

Did the Bureau for Africa ensure that its obligations were both legally valid and
properly valued?

Appendix I contains a discussion of the scope and methodology for the audit.



                                              -3-
Audit Findings
Did the Bureau for Africa ensure that its obligations were both legally valid and
properly valued?

For the items tested, the Bureau generally ensured that the obligations it executed were
valid and the obligations it managed were properly valued. On the positive side, all of
the Bureau-signed awards tested contained valid obligations, and the majority of Bureau-
managed awards tested contained properly valued obligations. With regard to the legal
validity of the obligations associated with the active awards reviewed, (1) documentary
evidence for obligations made was available, (2) obligating documents bore signatures of
authorized USAID officials, and (3) funds were obligated within their period of
availability. With regard to valuation, obligations were properly valued for 28 of the 39
awards reviewed.

However, there are two areas of concern where improvements would minimize future
risk of noncompliance with Federal laws or USAID policy and procedures. First, in
October 1999, Bureau officials certified that all obligations executed and recorded by the
Bureau’s officials were supported by appropriate documentation, i.e., they were valid
obligations. However, the officials who prepared these certifications were generally
unaware of the requirements for certifying validity and had not conducted any reviews to
determine whether the Bureau-signed obligations were in fact valid. Secondly, with regard
to valuation, the Bureau had not, as of March 31, 2000, initiated any systematic reviews of
its unliquidated obligations to identify excessive or unneeded balances for possible
deobligation since October 1997. As a result, excess and unneeded obligation balances were
not identified or deobligated.

The next two sections of this report will discuss two areas for improvement.


Controls Are Needed to Properly
Certify the Validity of Obligations

After the end of fiscal year 1999, the Bureau submitted a certification to the CFO stating
that all obligations entered by its officials into USAID’s accounting system were valid, as
defined by 31 U.S.C. 1501. Contrary to Federal law and USAID procedures, the Bureau
submitted this certification without conducting any review to ascertain whether the
statement was correct. The Bureau did not conduct a review because its officials were
uncertain about requirements to do so, and because the Bureau’s certification was not
based on any objective testing, it could not be considered reliable. Nonetheless, the
Bureau’s certification formed part of the USAID’s certification of validity, delivered to
the Department of the Treasury on November 15, 1999.

       Recommendation No. 1:        We recommend that the Bureau for Africa
       devise and carry out a plan for conducting and documenting reviews
       supporting its annual certification of the validity of its obligations.


                                            -4-
Detailed Discussion – Federal agencies are required by law to submit an annual
certification that their recorded obligations are consistent with law. In practice, this
certification is effected by the electronic submission of the Form 2108 to the Treasury.
USAID’s certification is prepared and submitted by the USAID’s CFO. The CFO’s
certification is itself based on certifications submitted to him by USAID’s bureaus, offices
and missions in accordance with directives found within the USAID’s Automated Directives
System (ADS). In addition, the Bureau’s Assistant Administrator signed a Memorandum of
Understanding with the CFO in December 1998, which outlined the Bureau’s certification
responsibilities. According to this memorandum, the Bureau is required to make an annual
certification to the CFO that every obligation signed by Bureau officials since the previous
certification was valid. Additionally, the Bureau was directed to implement controls, such
as periodic reviews, to ensure certifications are reliable.

The Bureau submitted a certification, dated October 29, 1999, stating that all of the
obligations it executed were valid. However, the Bureau had not conducted any review
prior to submitting the certification to determine whether its controls ensured that
(1) obligations were valid and (2) only valid obligations had been entered into the
accounting system.

When asked why they had not established required controls, Bureau officials said they
had been uncertain about the criteria to be used during reviews, the priority of these
reviews, and the scope of the certification. One manager said that, when the Office of
Financial Management (FM) informed bureaus and offices on January 16, 1998, that they
must promulgate new procedures describing responsibilities for preparing and supporting
certifications, neither FM nor the CFO provided details as to how bureaus should devise
effective reviews. Bureau managers were also uncertain as to whether they were required
to certify the validity of all Bureau-managed awards, or only Bureau-signed awards—an
uncertainty which was only resolved after both parties (the Bureau and the auditors)
requested clarification.

Other bureaus, however, either understood, or obtained clarification of the requirements
for reviews and the scope of the certification. For example, the Bureau for Europe and
Eurasia devised a fairly extensive policy for its reviews.

In our opinion, the Bureau’s management did not place a sufficiently high priority on
obligation management, and consequently did not take the initiative to devise procedures
or execute reviews. As a result, the fiscal year 1999 Bureau certification as to the validity
of obligations could not be relied upon, and, while the audit found no invalid obligations,
there was nevertheless a risk that the Bureau-signed obligations might not be valid.




                                             -5-
Improved Controls Are Needed
to Ensure Obligations Are Properly Valued

The review of unliquidated obligation balances and the deobligation of excess funds
strengthen financial internal controls by deleting balances from the accounting system
that are no longer needed. Nevertheless, for over two years, the Bureau did not
systematically review its unliquidated obligations, and as of March 31, 2000, had not
deobligated excess funds for 11 of the 39 awards tested by the audit. The Bureau had not
done so for a number of reasons. First and foremost, the responsibility for initiating the
review of unliquidated obligations was decentralized from FM to the bureaus in fiscal
year 1997, and the Bureau had not developed procedures to manage its unliquidated
obligations. As a result, excess funds totaling over $9.1 million, at March 31, 2000,
could have been deobligated and made available for other purposes (see Appendix III).

        Recommendation No. 2: We recommend that the Bureau for Africa review
        the balances described in Appendix III and deobligate excess or unneeded
        funds.

        Recommendation No. 3: We recommend that the Bureau for Africa develop
        procedures to systematically review the valuation of its unliquidated
        obligations. Procedures should include (a) establishing a universe of those
        obligations for which it is responsible; (b) performing annual reviews of
        obligation balances, so as to ensure that excess balances are identified and
        deobligated; (c) assigning "cognizant technical officers" for each obligation
        award—including awards which have expired; and (d) enforcing compliance
        with forward funding guidance.

Detailed Discussion – There are numerous regulatory and USAID-specific requirements
pertaining to the review of unliquidated obligations—and to the deobligation of excess
funds. For example:

    •   Office of Management and Budget Circular No. A-34 requires that agencies
        review obligations to ensure that they are not overstated and that they deobligate
        "appropriate amounts."

    •   USAID guidance (Automated Directives System, Chapter 571) requires a
        "periodic review of unliquidated balances" and the prompt deobligation of funds
        found to be excessive.

    •   USAID guidance prohibits excessive "forward funding" of obligations.
        Generally, program mangers must not fund obligations for more than 12 months
        into the future beyond the end of the fiscal year in which the obligations take
        place. Funds found to be in excess of the needs for this period should be
        deobligated. 1
1
 For the current audit in which we reviewed unliquidated obligations as of March 31, 2000, this means that
generally awards as of that date should not have obligated funds for expenses beyond September 30, 2001.


                                                   -6-
Up until the implementation of USAID’s new accounting system in fiscal year 1997, FM
had ensured that there was a systematic review of unliquidated obligations. Up until that
time, FM was responsible for "devising, implementing, and maintaining a comprehensive
system for the control of obligations…." FM initiated annual reviews of unliquidated
obligations, issued instructions and worksheets, provided lists of unliquidated obligations
to the bureaus, and processed recommended deobligations. Bureaus, on the other hand,
were responsible for conducting the reviews by following FM instructions.

However, all of this changed in fiscal year 1997 with the decentralization of the
responsibility for reviewing unliquidated obligations to the bureaus and FM’s elimination
of USAID’s internal requirement for annual reviews. FM asserted that the law did not
require annual reviews and that USAID had the discretion to determine how reviews
were to be done. As a result, FM no longer initiated an annual review process as it had
done in the past. It no longer reminded the bureaus to do reviews, and did not provide
instructions, worksheets and lists of obligations in order for bureaus to do the reviews.

As a result of these changes, the Bureau did not systematically review its unliquidated
obligations for a period of over two years. The Bureau did not establish procedures to
manage its obligations, identify the universe of the obligations it managed, or perform
comprehensive annual reviews. Accordingly, as of March 31, 2000, for the awards
tested, the Bureau had not deobligated funds that were in excess of needs. Specifically,
of the 39 awards tested by the audit, 11 were found to have excess funds (see Appendix
III).

Funds were found to be excessive for a variety of reasons. Four awards had expired more
than five years ago—sometimes with little documentation on file as to the history of the
associated obligations. Five of the awards included obligated funds that exceeded
forward funding guidelines, and at least two of these awards had no readily identifiable
cognizant technical officer assigned to follow up. In other words, more funds were
obligated than were needed to cover the period for which forward funding is allowed, and
nobody was clearly responsible for monitoring the awards. For two awards, plans had
changed such that some of the obligated funds were no longer needed. One award had
excess funds due to an apparent inaccurate entry of an obligation into the accounting
system. One award had funds judged to be excessive for more than one reason. Several
examples are discussed below:

   •   A $5.0 million grant to the International Bank for Reconstruction and
       Development expired in 1995 with a $3.4 million unliquidated balance. USAID
       records showed that $5.0 million had been advanced to the Bank, that the funds
       were available for expenditures through September 1995, but that only
       $1.6 million had been spent. The grant agreement required that any funds not
       expended when the grant expired were to be refunded. Also, the agreement
       required the Bank to submit a final Financial Status Report within 60 days after
       expiration, showing total advances, disbursements, and "any cash remaining on
       hand"—a sum which was to be refunded to USAID. No such final report was



                                            -7-
       located. The audit recommends that the entire $3.4 million be reviewed for
       deobligation and a refund, if any, be sought.

   •   A contract with Tulane University for goods and services in support of USAID’s
       famine early warning system had an unliquidated balance of $1.0 million as of
       March 31, 2000. The contract was initiated in 1989, completed in 1995, and per
       the contractor, the final voucher was submitted to USAID in 1996. USAID
       deobligated the $1.0 million remaining balance during the audit in August 2000.

   •   An interagency agreement with the U.S. Department of Agriculture to combat
       grasshopper and locust outbreaks in Africa had excess unliquidated obligations
       totaling of $333,385 as of March 31, 2000. Of the excess amount, $254,282
       related to a technical advisor who was deleted from the project, and $79,103
       related to funds obligated in excess of what was permitted by forward funding
       guidance. The audit recommends that these funds be reviewed for deobligation.

   •   An expired contract with the Rhone Poulenc AG Company for pesticide
       purchases dated from 1988. With $66,250 in unused funds, no activity in the
       accounting records since 1996, and little documentation in the files to support the
       obligation, the audit recommends that the entire amount be reviewed for
       deobligation.

   •   The amount of a modification to an interagency agreement with the Department
       of Health and Human Services was apparently incorrectly entered into the
       accounting system. When auditors compared the accounting system amount to
       that in the signed obligating document, they found an overstatement of $18,786.
       The audit recommends that the overstated amount be reviewed for deobligation.

While there are a number of interrelated reasons why excess funds had not been
identified and deobligated prior to March 31, 2000, most revolve around a lack of
procedures to replace those that had formerly been initiated by the FM. Notably, after the
decentralization of responsibility for reviewing unliquidated obligations, the Bureau had
not developed procedures to systematically review and deobligate excess funds.
Specifically,

   •   The Bureau did not establish a universe of the obligations or awards it managed;

   •   It did not conduct systematic, periodic reviews of its unliquidated obligation
       balances;

   •   The Bureau did not ensure that each award had an assigned "cognizant technical
       officer," an official who is knowledgeable about the terms of an award (the audit
       found that such assignments were often not up-to-date); and




                                           -8-
   •   Obligation managers did not always follow forward funding guidance and
       believed that compliance with the guidance was not a management priority.

Without a universe of obligations and without FM to initiate and encourage periodic
reviews of unliquidated obligations, the Bureau had no systematic approach to reviewing
the obligations for which it was responsible. In addition, neither FM nor USAID had
provided overall guidance as to how bureaus were to carry out their new responsibilities.
In short, decentralization was not accompanied by sufficient guidance, monitoring—or
training—to ensure that essential requirements were me t.

This situation has begun to change. In response to an earlier audit, FM initiated a
Washington-wide review of old, expired awards to see if excess and unneeded amounts
for those awards could be deobligated. In addition, the Bureau for Management
inaugurated a series of training programs for obligation managers. In September 2000,
USAID issued new guidance clarifying Bureau responsibility for obligation management
and establishing that bureau Assistant Administrators are responsible to "ensure that
effective procedures are in place" for managing their obligations. A key procedure
specified by the new guidance is an annual certification of unexpended balances by
which the bureau would certify as part of the annual budget process that unexpended
balances are needed for on-going programs and that the funding is consistent with
USAID guidelines for forward funding. This certification is in addition to the annual
statutory certification on the validity of obligations discussed in the first part of this
report. This new guidance should help ensure that the Bureau’s responsibility for
reviewing its unliquidated obligations is carried out.

It remains to be seen how the new review and annual certification process will work. At
the very least it should help re- institute a more systematic annual review of unliquidated
obligations, and put bureaus on notice as to their responsibilities for obligation
management.

In the Bureau for Africa, as a result of (1) a lack of systematic reviews and (2) forward
funding no ncompliance, excess balances have accumulated—and funds that were not
needed for future payments have remained idle. Notably, for the items tested, the audit
found excess funds totaling over $9.1 million at March 31, 2000, which could have been
deobligated and made available for other purposes. This constitutes 9.2 percent of the
dollar value of the unliquidated obligations reviewed by the audit. In terms of the
number of awards with excess funds, 11 out of the 39 awards reviewed contained funds
judged to be excess as of March 31, 2000. Of special concern is the number of old and
expired awards that remained in the system: 4 of the 11 awards had expired more than
five years prior to March 31, 2000.

It should be noted that the audit reviewed only about one seventh (50 of 330 awards) of
the Bureau’s total awards as of March 31, 2000, and it is therefore conceivable that
awards not reviewed may also include significant excess funds. We, therefore,
recommend that the Bureau first review the excess amounts identified in Appendix III to
determine whether these funds can be deobligated, and then put procedures in place,



                                            -9-
consistent with the new USAID guidance, to ensure that all other obligations for which
the Bureau is responsible are subject to systematic review. These procedures should
include (a) establishing a universe of obligations for which the Bureau is responsible, (b)
performing reviews and an annual certification of unliquidated obligation balances, (c)
making sure that cognizant technical officer assignments are up-to-date, and (d) enforcing
compliance with forward funding guidance.


Management Comments and Our Evaluation

The Bureau concurred with the audit report’s recommendations.

Based on the Bureau’s written comments on the draft report, we consider Recommendation
Nos. 1 and 3 to have received management decisions. In response to Recommendation
No. 1, the Bureau is drafting operating procedures to support its annual certification of the
validity of its obligations. In response to Recommendation No. 3, the Bureau plans to
implement procedures to systematically review the valuation of its unliquidated obligations.
These procedures will include establishing a universe of obligations, implementing annual
reviews, maintaining a registry of cognizant technical officers, and taking into account
forward funding guidance when recommending resource allocation levels.                  Both
recommendations can be closed when procedures are issued.

In response to Recommendation No. 2, the Bureau conducted a review of the unliquidated
balances described in Appendix III. However, the Bureau did not fully comment on the
$8,060,293 in efficiency savings identified in the Appendix. We are withholding our
concurrence with the management decision described in the Bureau’s comments until we
receive the results of the Bureau’s review of each of the figures in bold print in the table in
Appendix III. In some cases, the Bureau’s response noted that certain actions, which may
affect an amount we recommended for deobligation, are still pending. In others, the
response asserts that the unliquidated amount "currently" does not exceed forward funding
guidance, but supporting evidence is not provided.

Accordingly, we are summarizing, in the table on the following page, actions required for a
management decision for Recommendation No. 2. When these actions have been taken for
all of these awards, and the Bureau reports an efficiency savings figure to us, a management
decision can be achieved. The requirement for recommendations invo lving monetary
savings is that there must be agreement between the OIG and management on the dollar
amount of any efficiency savings for there to be a "management decision" on a
recommendation. To help arrive at this agreement, we have summarized in the fourth
column of the table below "Further Actions Required for a Management Decision."




                                             -10-
                                   Excess                                      Further Actions
                                              Response per Bureau
        Award Name                Funds at                                      Required for a
                                                   Comment
                                   3/31/00                                   Management Decision
Africa Business Roundtable         $89,240    Deobligated 9/27/00            None
The International Bank for        3,402,860   Will request an opinion        Provide copy of a plan of
Reconstruction and                            from General Counsel           action based on General
Development                                                                  Counsel’s response
African Center for Constructive    319,444    Currently does not exceed      Provide evidence to support
Resolution of Disputes                        forward funding guidelines     this assertion and/or
                                                                             deobligate any excess
Rhone Poulenc AG Company           66,250     Has requested deobligation     None
Tulane University                 1,008,834   Deobligated 8/3/00             None
Department of Agriculture          333,385    Currently does not exceed      Provide evidence to support
                                              forward funding guidelines     this assertion and/or
                                                                             deobligate any excess
Department of Health and           702,673    Period of performance          Provide evidence to support
Human Services                                extended; currently does not   this assertion and/or
                                              exceed forward funding         deobligate any excess
                                              guidelines
U. S. Information Agency          1,296,000   Currently does not exceed      Provide evidence to support
                                              forward funding guidelines     this assertion and/or
                                                                             deobligate any excess
General Services                  1,737,500   Steps will be taken to         Indicate amount to be
Administration                                deobligate funds deemed to     deobligated
                                              be to be in excess of
                                              forward funding guidelines
Department of Agriculture          183,395    New activity inaugurated;      Provide evidence to support
                                              currently does not exceed      this assertion and/or
                                              forward funding guidelines     deobligate any excess
National Institutes of Health      18,786     "made the necessary            Provide evidence for the
                                              correction to the incorrect    amount adjusted and/or
                                              entry"                         deobligated

Recommendation No. 2 can be closed when amounts currently found to be in excess of
needs are deobligated.

Finally, the second page of the comments contains three suggestions for minor changes to
the text of the audit report. First, we did not modify the language in the report to read "could
have been considered for deobligation," rather than simply "could have been deobligated."
Secondly, we did not modify or delete the reference to other bureaus having devised policies
to support the annual certification of the validity of their obligations. Both assertions are
factual and we believe they are relevant to the audit’s findings. And third, with regard to the
uncertainty of whether the Bureau was responsible for certifying the validity of all Bureau-
managed awards or only Bureau-signed awards, we agree that, in the end, both the Bureau
and the auditors requested clarification on the issue. Accordingly, per your suggestion, we
added a sentence to that effect to the final report.




                                              -11-
                                                                            Appendix I
                                                                              Page 1 of 2




                         Scope and Methodology




Scope

This audit was conducted in accordance with generally accepted government auditing
standards. The audit assessed the validity and valuation of obligations associated with
samples drawn from three hundred and thirty awards, which had unliquidated obligation
balances. The fifteen sampled awards used to evaluate the Bureau’s efforts to ensure
legal validity had total obligations of $102,458,526 and total unliquidated obligations
totaling $58,165,973 as of March 31, 2000. The thirty- nine sampled awards used to
evaluate the Bureau’s efforts to ensure proper valuation had total obligations of
$273,757,044 and total unliquidated obligations totaling $98,520,909 as of March 31,
2000. Audit testing was conducted on these samples, to assess how effective the
Bureau’s internal controls were in ensuring legal validity and proper valuation. The
relatively small size of the samples precluded us from making projections about the entire
universe of the Bureau’s awards. However, the report’s findings and recommendations
address control weaknesses, which have the potential for affecting all of the Bureau’s
awards.


Methodology

We addressed the audit objective concerning validity and valuation, by conducting tests
on awards managed by the Bureau in Washington, D.C. It was determined early on in the
audit that the Bureau could not provide a reliable universe of awards from which samples
could be drawn. Accordingly, the audit team devised a universe by extracting data from
USAID’s accounting system. The audit team compared this universe to a Bureau printout
of awards and a list of expired awards compiled by the Bureau for Management for its
unliquidated obligation initiative. Most importantly, Bureau personnel also reviewed the
universe. With 330 awards, the OIG-devised universe was, at the time, the most
comprehensive available, and the only list available in electronic form.
                                                                                Appendix I
                                                                                 Page 2 of 2
For the purpose of sampling, we divided this universe into five groups: 77 grants, 59
contracts, 26 interagency agreements, 10 "other" agreements, and 68 awards with unclear
management responsibility. The remaining 90 awards were travel authorizations, which
are not covered in the current audit.

With the assistance of the OIG’s resident statistician, a probability-proportionate-to-size
sample of 50 awards was drawn from the five groups. This technique involved
stratifying each group according to dollar thresholds, devising a rough weighted-average
to ensure that each group’s sample size would capture at least 60 percent of the group’s
total dollar amount, and determining how many of the 50 awards would be selected from
each group’s stratum. The audit team made the 50 sample selections, and when
judgement was necessary, awards with larger unliquidated amounts and older obligations
were selected. No awards were selected as potential replacements.

When audit testing began, it was discovered that 10 of the awards selected were no longer
the management responsibility of the Bureau. Two awards selected were in fact a single
award, half of which retained the numbering system from the previous accounting
system, and the second half from the current accounting system. These adjustments left
thirty-nine awards for valuation testing (i.e., awards currently managed by the Bureau).
This included the fifteen awards to be tested for validity (awards which were managed
and executed by the Bureau).

Audit testing involved two distinct areas—valuation and validity. Tests of validity
focused on whether on not individual obligations met the following statutory
requirements that obligations:

           1.   satisfied bona fide needs,
           2.   were for specific goods or services,
           3.   were supported by documentary evidence,
           4.   had a signed agreement,
           5.   were made within the period of availability of the funds, and
           6.   were made by individuals authorized to incur an obligation.

Tests of valuation focused primarily on soliciting feedback from the award’s cognizant
technical officer to determine (1) if plans existed to use all of the unliquidated
obligations, (2) if forward funding guidance had been followed, (3) if plans had changed,
or (4) if there were any other indications of over- funding.

In planning for the audit, we concluded that if unliquidated obligations in the sample
were found to be overstated by at least five percent, a "qualified opinion" would be
reported. If excessive unliquidated obligations greater than ten percent were found, an
"adverse opinion" would be given. With respect to the validity of obligations, we
determined that any finding of obligations that did not meet statutory requirements would
merit reporting.
                                              Appendix II
                                                Page 1 of 8

                                             FEB 21 2001

MEMORANDUM

TO: IG/A/PA, Dianne L. Rawl

FROM:    DAA/AFR, Keith Brown /s/

SUBJECT: Bureau Comments:    Report of Audit of USAID's
         Bureau for Africa's Management of unliquidated
         Obligations, Report No. 9-OOO-OO-XXX-F

We have received and reviewed the subject draft audit
report. The Africa Bureau concurs with the audit
report's recommendations that USAID's Bureau for Africa
should:

1. Devise and carry out a plan for conducting and
documenting reviews supporting its annual certification
of the validity of its obligations.

2. Review the balances described in Appendix III and
deobligate excess or unneeded funds.

3. Develop procedures to systematically review the
valuation of its unliquidated obligations. Procedures
should include
(a)     establishing a universe of those obligations for
which it is responsible; (b) performing annual reviews
of obligation balances so as to ensure that excess
balances are identified and deobligated; (c) assigning
"cognizant technical officers" for each obligation award
- including awards which have expired; and (d) enforcing
compliance with forward funding guidance.

We feel, however, that some passages in the draft report
do not accurately reflect the Bureau's understanding of
the agreements reached between the auditors and the
Bureau during the auditors' briefings:
                                                      Appendix II
                                                        Page 2 of 8
On page four, the last sentence in the second full paragraph
indicates uncertainty by Africa Bureau managers as to whether
the Bureau for Africa is responsible for the validity for all
Bureau-managed or only Bureau-signed awards. It should be noted
that all parties, including the IG/A/PA, also requested
clarification of this issue. This issue was first raised by the
Africa Bureau and GC at the exit conference held on November 2.
The Africa Bureau and GC challenged IG/A/PA's assertion that the
scope included all Africa Bureau managed awards, as opposed to
Africa Bureau signed awards only. The Africa Bureau called a
meeting with the IG/A/PA, M/CFO, M/OP, AFR/DP and AFR/GC on
November 7 to discuss this issue with all relevant offices. As a
result of that meeting, it was agreed by all parties that the
Bureau is only responsible for the validity of Bureau-signed
awards.

In the next paragraph on the same page, reference is made to the
performance of other bureaus in this same area. The Bureau
considers this reference to be improper and we feel it should be
stricken from the report. Other bureaus have not yet been
audited for their management of unliquidated obligations. The
audit team informed us in the entrance briefing that Africa
Bureau was selected to be the first bureau audited in this area
and that audits of other bureaus would occur in due time after
this audit was completed. Thus, the reference to other bureaus'
performance in this area is not substantiated, does not
contribute to the objective of the audit, and should be removed.

In the first partial sentence on page five, reference is made to
balances which "could have been deobligated". The auditors
stressed that it is not their role to force us to deobligate
funds. It is up to the Bureau to determine which amounts are
available for deobligation. It is more appropriate for the
auditors to inform us about balances that they found which did
not appear to fit forward funding guidelines and "could have
been considered for deobligation."

Page eight, third full paragraph: Again, the auditors' role
should be limited to advising the Bureau as to which obligations
they found appeared to be in excess, and "which could have been
considered for deobligation."

Recommendation No. 1:

The Africa Bureau concurs with this recommendation, and we are
implementing new procedures to address this weakness.
                                                     Appendix II
                                                       Page 3 of 8
When the Assistant Administrator for Africa signs annual
certifications of validity, we will ensure that 1) the
certifications apply to the full universe of AFR Bureau signed
awards, and 2) complete information on each obligation
is provided to the AA/AFR for his/her review.

The certification memorandum presented to the AA/AFR will
contain a summary table that clearly identifies for each award
the award name and number; the amount of the award; the date
the award was signed; the name of the individual signing the
award; and the cognizant technical officer. A copy of each
signed award will also be included in the package for the
AA/AFR's review.

We are drafting an Africa Bureau Standard Operating Procedure
(ASOP) that clarifies Africa Bureau award tracking. The ASOP
will spell out the following:

      1) The Program Analyst in AFR/Sustainable Development is
    the coordinator for all Africa Bureau signed awards;
      2) A copy of each signed award, along with the
information noted above concerning award value, date, CTO etc.
must be on file with the AFR/SD Program Analyst within 5 days
of award signing;
      3) AFR/DP/PAB will work with the AFR/SD coordinator and
use both the Phoenix accounting system and Business Objects (a
Phoenix-linked reports package) to run quarterly reports to
capture all Bureau issued obligations. AFR/DP will reconcile
these reports with the records maintained by the AFR/SD
coordinator to ensure the full universe is captured.
      4) The final verification package for the AA/AFR will
also include a copy of the September 30 Phoenix report ensuring
that the tracking system maintained by the AFR/SD Program
Analyst ties to the obligations as recorded in Phoenix, the
official Washington accounting system.

We will issue this new ASOP not later than March 16, 2001. We

request that audit recommendation No. 1 be closed.

Recommendation No. 2: The Africa Bureau has conducted a review
of the unliquidated balances described in Appendix III of this
report. The following provides information on the status of
each item listed in Appendix III. Each award identified in the
                                                        Appendix II
                                                           Page 4 of 8
audit and discussed below is listed with the name of the recipient
followed by the grant, contract or other agreement number in
parentheses.

Africa Business Roundtable (6240438G00214000) - unliquidated
balance of this award was deobligated on September 27, 2000.

World Bank (6980536G00106000) - This is an award to a multi-donor
trust fund, originally anticipated to total $76 million. USAID
originally anticipated a total contribution of $10 million for the
entire life of the activity through 2002. An initial $5 million
was obligated for expenditures through Sept. 30, 1995, but due to
funding cuts, the additional $5 million was never obligated. USAID
has continued to participate in the programmatic aspects of the
activity through the current time, as reflected in the MOU signed
in 1991.

As is usual for grants to PIOs for multidonor trust funds, USAID's
funds are commingled with those of other donors, and can not be
directly identified with specific expenditures. The reporting
requirements in the grant agreement reflect this. Since it was
planned that the Bank would provide most of the grant funds to the
African Capacity Building Initiative (ACBI), the grant agreement
provides for certain reporting from ACBI directly to tJSAID, in
addition to reporting from the World Bank.

The Bank has informed us that, since the Trust Funds itself runs
through June 2002, it will not be able to produce a final report
specifying the actual amount of USAID funds that have been
liquidated until that time. However, the grant agreement contains
a number of provisions which suggest that there may be alternative
means by which it can be.determined that USAID's funds have been
liquidated. For instance, the grant agreement contains a number of
items for which it states that USAID funds can be used, to which
USAID funds possibly could be attributed. The grant agreement
recognizes that certain reporting may flow directly from ACBI to
USAID, and AFR/SD will seek to obtain more recent ACBI annual
reports. The grant agreement does not require that funds be
attributed on a pro rata share among donors, and, in any case,
amounts and timing of donor contributions have not been fully
uniform or provided as initially planned.

AFR/SD will request an opinion from GC as to whether there are
alternative bases on which to consider USAID's obligation as fully
liquidated, or whether it is possible to consider extending the
estimated grant completion date to encompass USAID's participation
in the full period of the Trust Fund.
                                                      Appendix II
                                                        Page 5 of 8
African Center for Constructive Resolution and Development (AOT-
G-OO-97-00369) - The forward funding issue has now been resolved
by the disbursement of funds in December 2000. The current
unliquidated balance does not exceed the forward funding
guidelines.

Rhone Poulenc AG Company (AFRO517COO2O8200) - This firm merged
with Aventis CropScience USA, LP. Contact was made with Matthew
S. Keefer (financial officer) and a letter was sent requesting
.the final SF 269 specifying the liquidation of the obligation.
No response was received. The Bureau has requested that the
funds be deobligated and has forwarded the request to FM for
action.

Tulane University (AFR0466C00903500) - Unliquidated balance of
this award was deobligated on August 3, 2000.

Department of Agriculture (AOT-R-AG-92-00166) - Emergency
funding was obligated under this agreement to cover the
possibility of grasshopper and locust plagues in Africa.
Currently the unliquidated balance does not exceed the forward
funding guidelines.

Department of Health and Human Services (AFR-P-OO-98-00012) - On
December 12, 2000 the American Institute for Research (AIR)
requested a no-cost extension to Task Order No. 10 to 6 May 2001
because the existing Task Order was due to end on February 5,
2001.

Several factors have influenced implementing the existing Task
Order, which has resulted in an unanticipated lag in using the
available resources. These include (1) key personnel who were
seconded to other activities that were covered by other
implementing mechanisms and (2) the changing conditions in
targeted countries that delayed the implementation of planned
activities. An extension of the period of performance is
expected to provide a more appropriate and realistic time frame
that will permit the successful completion of the overall agenda
of this Task Order. Based upon our discussions with the Grantee
regarding the time required to complete planned activities, we
have extended the task order through April 30, 2001. By our
current estimates, the unliquidated balance does not exceed the
forward funding guidelines. Finally, we do not anticipate
providing additional extensions and intend to initiate a review
                                                      Appendix II
                                                        Page 6 of 8
to determine whether or not a balance remains to be de-obligated
when this Task Order ends on April 30, 2001.

U.S. Information Agency (AFR-P-OO-99-00002) - This action was
taken under the Education for Development and Democracy
Initiative (EDDI). The initial obligation to USIS was $2.7
million in September 99. The second was $7.0 million in August
2000. Most of these amounts were obligated for participant
training, for which forward funding guidelines anticipate full
funding at the time of obligation. The remainder of the funds
was obligated for technical assistance to establish partnerships
and USIS management costs. A good faith judgment was made at the
time of each obligation that these activities would be completed
by the following September. Unanticipated delays in implementing
the program occurred. These delays are attributable in part to
the management structure of the EDDI program which is carried
out by an Interagency Working Group (IWG) and requires a great
deal of consultation and collaboration, resulting in a slower
decision-making and implementation process. Currently, this
activity is fully within the forward funding guidelines, since
all currently-obligated non-training funds are expected to be
expended by August 2002.

General Services Administration (AFR-P-OO-99-00008) - At the
time this agreement was signed, the demand for scholarship funds
exceeded the available funding. It is important to note that the
Education for Development and Democracy Initiative (EDDI) does
not function exclusively in countries where there is USAID
presence. Therefore, country checklists were not in place for
all countries planning to participate in the EDDI program. And
while it was known how and where the funds were to be spent, and
that these funds were for participant training that would
require immediate full funding, only the countries with
checklists on file were authorized to have the scholarships
begin. In full consultation with the General Counsel's office, a
process was put into place utilizing project implementation
letters to effect a change and add countries as they were
approved for expenditures. The process has significantly
increased the liquidation rate and the pipeline is expected to
assume reasonable proportions shortly. Note that the pipeline
will be reviewed on a periodic basis, at which time, steps will
be taken to de-obligate funds deemed by the project managers to
be in excess of the funding guidelines.

Department of Agriculture (AOT-R-OO-95-00123) - Additional
funding was obligated under this agreement to provide the
                                                      Appendix II
                                                        Page 7 of 8
necessary funding for the revised program that is now Famine
Early Warning System Network (FEWS NET). This new activity was
inaugurated in June 2000 and required startup funds for a
transition that may not have been available otherwise. Currently
the unliquidated balance does not exceed the forward funding
guidelines.

National Institute of Health (AOT-P-HI-92-00171) - The Office of
Procurement has made the necessary correction to the incorrect
entry into the accounting system regarding the agreement with
the National Institute of Health.

At this time, the Africa Bureau requests closure on
recommendation No.2.


Recommendation No. 3

The Africa Bureau concurs with this recommendation, and will
implement the following procedures to address this weakness:

(a)     As noted in the discussion for recommendation no. 1
above, we are instituting a procedure to ensure full
documentation of those awards signed by Africa Bureau staff. We
will also be sending to M/OP by March 1, a memorandum requesting
that they provide copies of all M/OP signed awards, incurred
through Africa Bureau funding actions (but excluding Field
Support), within 10 days of award signing to the AFR/SD Program
Analyst. The AFR/SD Program Analyst will work with AFR/DP/PAB
staff to establish a reconciliation procedure to ensure that
copies of all Africa Bureau funded awards (exc.luding Field
Support) recorded in Phoenix are on file with the coordinator in
AFR/SD. This reconciliation will be performed quarterly. The
first reconciliation will be completed not later than March 15.

(b)     The Africa Bureau will implement an annual review of all
awards managed by the Bureau in Washington, both active and
expired, to ensure that excess balances are identified and
deobligated. Because the Phoenix accounting system is not yet
used to track obligation accrual information (targeted Agency
start date according to M/FM is June 2001), the first year's
review planned for April 2001 will rely on CTO cuff record
tracking to determine accrual balances. AFR/DP/PAB will
establish and publish a Standard Operating Procedure by March 15
for obligation reviews similar to the
                                                      Appendix II
                                                        Page 8 of 8
procedures formerly used by M/FM in the Section 1311 reviews. We
have already alerted M/FM to our desire to work closely with
them to 1) structure implementation of Phoenix system
functionality for recording and tracking obligation accruals;
and 2) structure an annual obligation review that can utilize
the information contained in Phoenix, the Agency's official
accounting system for AID/W transactions.

The ASOP will also affirm the Bureau's policy on the need to
better manage obligations, and reference the relevant sections
of the ADS relating to obligation management and pipeline
parameters.

Following each annual review of obligation balances, a progress
report memorandum will be issued to the AA/AFR, with a copy to
the M/CFO summarizing the Bureau's findings, and actions
proposed.

(c)    The AFR/SD Program Analyst will maintain a registry, to
be reviewed by AFR/DP/PAB on a quarterly basis, which will list
each CTO in the Bureau, with a complete list of obligations
(both active and expired) for which they are responsible. The
initial registry will be completed not later than March 15. The
AFR/SD Program Analyst and AFR/DP/PAB will share this registry
with M/OP and work with OP to ensure that valid signed CTO
instruction memoranda are on file and up to date for each active
award.

(d)    As a result of information gained during the annual
review of Africa Bureau obligations, AFR/DP will take into
account pipeline and forward funding guidance when recommending
resource allocation levels to the AA/AFR.

We request that audit recommendation No. 3, parts (a), (b), (c)
and (d) be closed.

The Africa Bureau appreciates the collaboration and assistance
that was provided by the auditors during the course of the
audit.
                                                                                    Appendix III
                                                                                         Page 1 of 1



                                 Bureau for Africa Awards
                          With Balances that Appear to be Excessive
                                    As of March 31, 2000



                                             Unliquidated    Excess
             Award Name                                                             Reason for
             and Number                      Obligations     Funds                   Excess
                                              at 3/31/00    at 3/31/00

Africa Business Roundtable                                                        Expired Grant
                                                  $89,240     $89,240*
            6240438G00214000                                                   (deobligated 9/27/00)
The International Bank for
Reconstruction and Development                  3,402,860    3,402,860            Expired Grant
            6980536G00106000
African Center for Constructive
Resolution of Disputes                          2,308,449      319,444     Excessive Forward Funding
           AOT-G-00-97-00369
Rhone Poulenc AG Company
                                                   66,250       66,250           Expired Contract
           AFR0517C00208200
Tulane University                                                               Expired Contract
                                                1,008,834    1,008,834*
           AFR0466C00903500                                                   (deobligated 8/3/00)
Department of Agriculture                                                   Changed Plans/ Excessive
                                                  841,324      333,385
           A OT-R-A G-92-00166                                                  Forward Funding
Dept. of Health and Human Services
                                                2,275,000      702,673            Changed Plans
           AFR-P-00-98-00012
U. S. Information Agency
                                                2,058,200    1,296,000     Excessive Forward Funding
           AFR-P-00-99-00002
General Services Administration
                                                3,426,483    1,737,500     Excessive Forward Funding
           AFR-P-00-99-00008
Department of Agriculture
                                                1,642,509      183,395     Excessive Forward Funding
           AOT-R-00-95-00123
National Institutes of Health                                             Incorrect Entry into Accounting
                                                5,440,753       18,786
           AOT-P-HI-92-00171                                                          System

                 Total                                       $9,158,367



*Less amounts deobligated during the audit                $ 1,098,074
                                                         __________
Excess amounts to be reviewed for deobligation (in bold) $ 8,060,293
